  FEDERAL INFORMATION SECURITY
     MANAGEMENT ACT REPORT


                Evaluation of
      Social Security Administration's
             Compliance with the
Federal Information Security Management Act




                 A-14-03-13046


September 2003           James G. Huse, Jr. – Inspector General
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   •   Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
   •   Promote economy, effectiveness, and efficiency within the agency.
   •   Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
   •   Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
   •   Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   •   Independence to determine what reviews to perform.
   •   Access to all information necessary for the reviews.
   •   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                     DRAFT


                                         SOCIAL SECURITY
MEMORANDUM

Date:   September 5, 2003                                                           Refer To:

To:     The Commissioner

From: Inspector General

Subject: Evaluation of Social Security Administration’s Compliance with the Federal Information
        Security Management Act (A-14-03-13046)


        OBJECTIVE

        Our objective was to determine if the Social Security Administration’s (SSA) overall
        security program and practices complied with the requirements of the Federal
        Information Security Management Act of 2002 (FISMA).1 Our analysis includes an
        evaluation of SSA’s plan of action and milestones (POA&M) process.

        SUMMARY OF RESULTS
        During our Fiscal Year (FY) 2003 FISMA evaluation, we determined that SSA generally
        met the FISMA requirements and has made improvements over the past year.
        However, there are still opportunities for the Agency to strengthen its information
        security program. To ensure full compliance with FISMA in the future, SSA needs to
        address the following issues:

            1. Not all system weaknesses and deficiencies were identified and reported and
               SSA does not have a POA&M process that tracks all significant weaknesses as
               specified in the OMB FISMA guidance.2 We recommend SSA develop and
               implement an adequate process to identify, report, monitor, and resolve systems
               and security related weaknesses through the POA&M process. This process
               should include the ability to track all significant system weaknesses and to
               validate that corrective actions remedied those weaknesses. See pages 4 and 5
               for more detail.




        1
          Public Law 107-347, Title III, section 301.
        2
          Public Law 107-347, Title III, section 301, § 3544 (b)(6), and OMB Memorandum M-03-19, Reporting
        Instructions for the Federal Information Security Management Act and Updated Guidance on Quarterly IT
        Security Reporting, August 6, 2003, Attachment C - section I.A.2, p. 20.
Page 2 - The Commissioner

    2. Not all programs, systems, and subsystems are identified and reported as
       specified in the FISMA guidance.3 We recommend SSA identify all such
       programs, systems and subsystems. See page 6 for more details.

    3. SSA does not have a complete, coordinated, and fully tested continuity of
       operations plan (COOP).4 We recommend SSA work with other organizations to
       fully resolve this issue. See page 7 for more details.

    4. The Office of Chief Information Officer (OCIO) does not have sufficient resources
       to manage and monitor all IT security related activities to ensure compliance with
       the Electronic Government (E-Government) Act of 2002.5 We recommend SSA
       provide the OCIO with the necessary resources to manage all Information
       Technology (IT) security related activities, which would enable the Agency to
       comply with the E-Government Act of 2002. See page 8 for more details.

    5. SSA does not adequately track and monitor all information security training.6 We
       recommend SSA implement a system to track and monitor information security
       training. See page 9 for more details.


SCOPE AND METHODOLOGY
FISMA directs each agency’s Office of Inspector General (OIG) to perform an annual,
independent evaluation of the agency’s information security program and practices, as
well as a review of an appropriate subset of agency systems.7 The SSA/OIG contracted
with PricewaterhouseCoopers LLP (PwC) to audit SSA’s FY 2003 financial statements.
Because of the extensive internal control system work that is completed as part of that
audit, our FISMA review requirements were incorporated into the PwC financial
statement audit contract. This audit included Federal Information System Control and
Audit Manual-level reviews of SSA’s mission critical sensitive systems. PwC performed
an “agreed-upon procedures” engagement using FISMA, the Office of Management and
Budget (OMB) Memorandum M-03-19, Reporting Instructions for the Federal
Information Security Management Act and Updated Guidance on Quarterly IT Security
Reporting, National Institute of Standards and Technology (NIST) guidance, and other

3
  Public Law 107-347, Title III, § 3544 (b)(3), and OMB Memorandum M-03-19, Reporting Instructions for
the Federal Information Security Management Act and Updated Guidance on Quarterly IT Security
Reporting, August 6, 2003, Attachment B.I.A.2a, p. 11.
4
  Public Law 107-347, Title III, section 301, § 3544 (b)(8), and OMB Memorandum M-03-19, Reporting
Instructions for the Federal Information Security Management Act and Updated Guidance on Quarterly IT
Security Reporting, August 6, 2003, Attachment A – section E, p. 7.
5
  Public Law 107-347, Title II, section 202 (f), and section 209, Title III section 301, § 3544 (a)(3)(iv), and
OMB Memorandum M-03-18, Implementation Guidance for the E-Government Act of 2002,
August 1, 2003, p. 4.
6
  Public Law 107-347, Title III, section 301, § 3544 (a)(4), and OMB Memorandum M-03-19, Reporting
Instructions for the Federal Information Security Management Act and Updated Guidance on Quarterly IT
Security Reporting, August 6, 2003, Attachment B.I.C.3, p. 15.
7
  Public Law 107-347, Title III, section 301, § 3545 (b)(1).
Page 3 - The Commissioner

relevant security laws and regulations as a framework to complete the OIG required
review of SSA’s information security program and practices and its sensitive systems.
Part of the field work included the completion of the NIST Security Self-Assessment
Guide for Information Technology Systems8 (Self-Assessment).

FISMA also requires that we evaluate the Agency’s compliance with the President’s
Management Agenda and determine whether the Agency has developed, implemented,
and managed an agency-wide POA&M process.9

The results of our FISMA evaluation are based on the PwC FY 2003 FISMA Agreed-
Upon Procedures report and working papers, various audits and evaluations performed
by other contractors, PwC, and this office. We also reviewed the final draft of SSA's
Annual Security Program Review Federal Information Security Management Act
FY 2003 report and the Agency’s Independent Review of Information Technology
Security Program Self-Assessment report.

We performed field work at SSA facilities nationwide from April through September
2003. The evaluations were performed in accordance with generally accepted
government auditing standards.

BACKGROUND AND CURRENT SECURITY STATUS

FISMA requires agencies to create protective environments for their information
systems. It does so by creating a framework for annual IT security reviews, vulnerability
reporting and remediation planning.10 Since 1997, SSA has had an internal controls
reportable condition concerning its protection of information.11 The resolution of this
reportable condition remains a priority for the Agency. SSA is working with the OIG and
PwC to develop an approach to resolve this reportable condition and other issues
including:

   physical access controls at non-Headquarters locations, including SSA’s regional
    offices, program service centers (PSC), and selected Disability Determination
    Services (DDS);

   implementation and monitoring of technical security configuration standards
    governing the systems housed in the National Computer Center and systems
    housed off-site; and

   monitoring security violations and periodic review of user access.



8
  NIST Special Publication 800-26 Security Self-Assessment Guide for Information Technology Systems.
9
   See footnote 2.
10
    See footnote 2.
11
    SSA’s FY 2002 Performance and Accountability Report, pp. 178-9.
Page 4 - The Commissioner

In August 2001, the President’s Management Agenda was initiated to improve the
management and performance of Government. The Agenda’s guiding principles are
that Government services should be citizen-centered, results-oriented, and market
based. OMB developed a traffic light scorecard to show the progress agencies made:
green for success, yellow for mixed results, and red for unsatisfactory. The expansion
of E-Government services is one of the five government-wide initiatives assessed.
SSA’s current status is yellow and its score for progress in implementing E-Government
services is green. FISMA requires agencies to take a risk-based, cost-effective
approach to securing their information and systems, and assists Federal agencies in
meeting their responsibilities under the President’s Management Agenda. FISMA
reauthorized the framework laid in the Government Information Security Reform Act12
(GISRA), which expired in November 2002. In addition to the previous GISRA
requirements, FISMA authorizes NIST to development standards for Agency systems
and security programs.13

FISMA also requires agencies to prepare and submit POA&M reports for all programs
and systems where an IT security weakness was found.14 The purpose of the POA&M
is to assist agencies in identifying, assessing, prioritizing, and monitoring the progress
of corrective efforts for reported security weaknesses. POA&M reports support the
effective remediation of IT security weaknesses, which is essential to achieving a
mature and sound IT security program and securing agency information and systems.
FISMA now requires an OIG’s evaluation of the agency’s POA&M process;15 this
evaluation is instrumental in enabling the agency to get to green under the expanding
E-Government Scorecard of the President’s Management Agenda.

SSA HAS NOT REPORTED ALL SIGNIFICANT SYSTEM DEFICIENCIES

In its FY 2003 FISMA report, SSA did not report any material weaknesses. There are,
however, numerous system-related deficiencies disclosed through OIG and contractor
audits, which should be reported. FISMA guidance16 requires agencies to identify and
report all material weaknesses and indicate whether POA&Ms have been developed for
those weaknesses. Specifically, agencies are required to report any significant
deficiencies in a policy, procedure, or practice. However, SSA has only reported those
material weaknesses as defined under the Chief Financial Officers’17 and Federal
Managers' Financial Integrity Acts.18 Based on FISMA reporting guidance,19 SSA
12
   Public Law 106-398.
13
   Public Law 107-347, Title III, section 301, § 3543 (a)(3).
14
   See footnote 2.
15
   Public Law 107-347, Title III, section 301, § 3544 (b)(6).
16
   OMB Memorandum M-03-19, Reporting Instructions for the Federal Information Security Management
Act and Updated Guidance on Quarterly IT Security Reporting, August 6, 2003, Attachment A - section H,
p. 8.
17
   Public Law 101-576.
18
   Public Law 97-255.
19
   OMB Memorandum M-03-19, Reporting Instructions for the Federal Information Security Management
Act and Updated Guidance on Quarterly IT Security Reporting, August 6, 2003, Attachment C - section
I.A.2, p. 20.
Page 5 - The Commissioner

should report all significant deficiencies in its security program and develop POA&Ms for
these deficiencies.

SSA completed the NIST Self-Assessment as part of its review for FISMA FY 2003. In
its Self-Assessment, SSA did not report any system weaknesses or deficiencies. In the
OIG’s FY 2003 completion of Self-Assessment Guide for SSA, numerous weaknesses
or deficiencies were noted including:

            Inconsistencies between Windows NT risk models and the actual settings found
             on boxes in remote locations;

            Lack of periodic access reviews including mainframe production data; and

            Weaknesses in access controls over telecommunications hardware/facilities at
             PSCs and DDSs.

Presently, several components monitor and track open security and system related
recommendations from contractors, General Accounting Office (GAO), and OIG reviews
and audits. SSA is currently developing a database to consolidate the system-related
weaknesses tracked by those different components so that it can easily determine the
status of and track the remediation of its total universe of weaknesses. SSA’s Chief
Security Officer (CSO) anticipates that the Agency’s POA&M process will use this
database to identify and report on systems and security related deficiencies included in
this database by the end of FY 2004.

AGENCY’S PLAN OF ACTION AND MILESTONES PROCESS DOES
NOT FULLY MEET FISMA REQUIREMENTS
In June 2003, SSA management reported only eight weaknesses in the most recent
quarterly update of its POA&M report. However, OMB guidance20 requires that
agencies also report, “…all security weaknesses found during any other review done by,
for, or on behalf of the agency, including GAO audits, financial systems audits, and
critical infrastructure vulnerability evaluations.” Based upon all OIG, GAO, PwC, and
contractor reviews and audits, there are additional weaknesses SSA should report.
Examples of these weaknesses include the need to:

            Improve coordination for continuity of operations plans between the IT team and
             business operations;

            Establish policy and procedures to automatically remove inactive user IDs; and

            Ensure that all sensitive external transmissions are encrypted.



20
     Ibid.
Page 6 - The Commissioner

According to OMB guidance,21 Federal agencies must meet three criteria to get a score
of green for security on the E-Government scorecard. Specifically, the OIG must
provide a positive assertion that the agency-wide POA&M process has been improved
and includes a verifiable remediation process. For SSA to improve its current status on
their E-Government scorecard to green, its POA&M process needs to be implemented.
Based on our evaluation, SSA’s current process for monitoring weaknesses is
decentralized and does not contain a method to verify remediation. SSA is in the
process of building a new system related database that will meet those needs.

SSA HAS NOT IDENTIFIED ALL PROGRAMS, SYSTEMS AND
SUBSYSTEMS

OMB guidance22 requires that all agencies identify all programs, systems and
subsystems, not just sensitive systems. Program officials and CIOs are responsible for
reviewing the security of all programs and systems under their respective control. Such
reviews are not adequate without a review of all systems supporting an agency’s
programs.

For the past several years, SSA has not included all programs, systems and
subsystems in its Government Information Security Reform Act and FISMA reports.
SSA’s CSO, however, indicated that the Agency is in the process of developing a
complete inventory of applications that support the Agency. The draft documentation
shows a more comprehensive approach to identifying what applications are supported
under the 17 sensitive systems certified annually. The Agency indicated that the project
is scheduled to be completed during FY 2004. Once this list is complete, we will be
able to determine whether all programs, system and sub-systems were appropriately
reviewed.




21
    OMB Memorandum M-03-19, Reporting Instructions for the Federal Information Security Management
Act and Updated Guidance on Quarterly IT Security Reporting, August 6, 2003, Attachment B - section
II.B, p. 18.
22
    OMB Memorandum M-03-19, Reporting Instructions for the Federal Information Security Management
Act and Updated Guidance on Quarterly IT Security Reporting, August 6, 2003, Attachment B.I.A, A.2a,
p. 11.
Page 7 - The Commissioner

SSA NEEDS TO COMPLETE ITS CONTINUITY OF OPERATION PLANS

SSA has not fully completed, coordinated, and tested its COOP. FISMA23 codifies a
longstanding policy requirement that each agency’s security program and security plan
include the provision for a COOP for information systems that support the operations
and assets of the agency. FISMA guidance24 explicitly includes, in this requirement,
information and information systems “…provided or managed by another agency,
contractor, or other source.” …For the purposes of agency implementation, “other
source” has the same meaning as “other organization on behalf of an agency”
discussed above.”

SSA continues to improve its COOP for the entire Agency, but there are still some
deficiencies and weaknesses. The COOP for mission critical systems is being
developed, but is not completed. The COOP has not been tested and does not address
information and information systems provided or managed by another agency,
contractor or other source. SSA relies heavily upon other Federal and State
government agencies such as State DDSs and the Department of Treasury but SSA is
uncertain as to the availability of these agencies in the event of a disaster. Our audits
have repeatedly shown that DDSs do not have adequate COOPs. The DDSs do not
identify resources needed to maintain critical operations in the event of a disaster.
Generally, we found that DDS COOPs have not been tested.

As another example, without Treasury’s Financial Management Services (FMS), all
Supplemental Security Insurance (SSI) payments would cease. FMS has mitigation
efforts in place to help ensure that SSI recipients would receive their payments.
However, the Treasury’s FY 2002 Financial Statement report25 includes service
continuity as a material weakness. Specifically the report states that several significant
deficiencies, including insufficient planning and testing, could impair timely restoration of
mission critical systems, including the payment systems.26 Without coordinating its
plans with other organizations, SSA’s ability to perform its mission in the event of a
disaster could be greatly diminished.




23
   Public Law 107-347(§ 3544(b)(8)).
24
   OMB Memorandum M-03-19, Reporting Instructions for the Federal Information Security Management
Act and Updated Guidance on Quarterly IT Security Reporting, August 6, 2003, Attachment A – section
E, p. 7.
25
   Treasury’s FY 2002 and 2001 Financial Statements (OIG-03-014).
26
   Audit of FMS’ FY 2002 and 2001 Schedules of Non-Entity Government-Wide Cash (OIG-03-039).
Page 8 - The Commissioner

SSA’S OCIO’S RESPONSIBILITIES AND AUTHORITY NEEDS
IMPROVEMENT TO FULLY COMPLY WITH THE E-GOVERNMENT ACT

Previously, we reported27 weaknesses in SSA’s security management structure and
recommended a number of improvements including the creation of the OCIO. These
recommendations were made to ensure that SSA complied with the requirements of the
Computer Security Act of 1987,28 GISRA, and the Clinger-Cohen Act of 1996.29 Based
on our recommendations, SSA created the OCIO, which restructured the information
security program.

Since that report, Congress has established a wide statutory framework for IT. The
E-Government Act of 2002 enhances this framework. This Act requires each Federal
agency to follow information resource management policies and guidance established
by OMB and developed by NIST.30 According to OMB guidance,31 agency Chief
Information Officers (CIOs) must monitor their agency’s implementation of IT standards
developed by NIST. These standards include guidelines for the connection and
operations between systems, categorization of Federal Government electronic
information, and computer system efficiency and security.

FISMA requires that each Federal agency CIO head an office with the mission and
necessary resources to ensure the agency compliance with the regulation.32 Currently,
SSA’s CSO reports directly to the CIO. The CSO has a small staff that is responsible
for directing and managing the Agency’s enterprise information technology security
program. The CSO establishes agency-wide security policies and manages the
reporting and monitoring processes to ensure compliance. This is accomplished using
a network of people in various locations throughout the Agency. For example, security
policy is developed by one component and implemented by SSA’s systems in another
component. The CSO must coordinate activities with the various individuals with no
direct reporting from these components. This decentralization and small staff inhibit the
efficiency of the process.

We reviewed a number of Federal agencies’ organizational structure and found that
numerous CIOs were responsible for virtually all IT operations, including security
activities. For example, within the United States Department of Health and Human
Services (HHS), the CIO's office is located in the Office of Information Resources
Management. The HHS CIO serves as the primary IT leader for the HHS and is
responsible for developing an IT plan that lays out the Secretary's vision for enterprise
architecture, consolidated systems, and strong IT security. Our review of the

27
   OIG report, Compliance of the Social Security Administration’s Computer Security Program with
Applicable Laws and Regulations, June 2001 (A-13-98-12044).
28
   Public Law 100-235.
29
   Public Law 104-106.
30
   Public Law 107-347, Title II, section 202 (a)(1).
31
   OMB Memorandum M-03-18, Implementation Guidance for the E-Government Act of 2002,
August 1, 2003, p. 4.
32
   Public Law 107-347, Title III § 3544 (a)(3)(iv).
Page 9 - The Commissioner

Department of Veterans Affairs (VA) CIO office structure found that the VA CIO is also
the Assistant Secretary for Information and Technology. The VA CIO manages the
Office of Information and Technology which is responsible for a variety of functions
including integrated business and IT planning, security and contingency planning,
managing VA's wide area data communications network, and protecting information and
privacy across VA's systems and networks. For SSA to be in full compliance with the
E-Government Act, SSA’s OCIO needs sufficient resources to ensure that it can
manage and monitor all IT security related activities.


SSA NEEDS TO DEVELOP AN INFORMATION SECURITY TRAINING
SYSTEM

According to OMB guidance,33 agency CIO’s should ensure that an appropriate IT
security training program is established and operational. FISMA requires that agencies
report on information security training provided employees during the reporting period.
We found that SSA provides specialized security training for those employees with
extensive security responsibilities and security awareness training for other employees
to perform their normal duties. However, SSA does not have a system in place that can
accurately track what IT security training was provided to which employees, when the
training was provided, and the cost of the training that was provided. To comply with
FISMA reporting requirements, the Agency requested security training information from
all components. Three components, comprising approximately 25 percent of the
Agency’s employee population, did not provide data that the Agency needed for FISMA
reporting. Additionally, a number of components provided information on training
courses that contained little or no security content. SSA has been trying to develop a
training system to track security training for 3 years. The system is still not
implemented. When the system is implemented, it will greatly enhance SSA’s ability to
manage an adequate, efficient information system security training program.


CONCLUSIONS and RECOMMENDATIONS
During our FY 2003 FISMA evaluation, we determined that SSA generally met the
requirements of FISMA. SSA has developed and implemented a wide range of security
policies, plans, and practices to safeguard its systems, operations, and assets. Over
the years, SSA has created its OCIO, established a Critical Infrastructure Protection
workgroup to oversee compliance with Presidential Decision Directive 63,34 and
implemented an incident response team.


33
   Implementation Guidance for the E-Government Act of 2002, M-03-18, August 1, 2003, p. 4 and OMB
Memorandum M-03-19, Reporting Instructions for the Federal Information Security Management Act and
Updated Guidance on Quarterly IT Security Reporting, August 6, 2003, Attachment B.I.C.3, p. 15.
34
   The Clinton Administration’s Policy on Critical Infrastructure Protection: Presidential Decision Directive
63, May 22, 1998.
Page 10 - The Commissioner

To fully comply with FISMA and other information security related laws and regulations
in the future, we recommend SSA:

1. Continue to develop a system to identify, track and report the resolution of all
   significant system deficiencies that can be used to create and monitor POA&M.

2. Clearly document and identify all programs, systems and subsystems to ensure they
   are reported and reviewed in compliance with FISMA.

3. Continue to develop and implement a complete and coordinated COOP for the
   Agency which is tested on a regular basis.

4. Provide sufficient resources to permit the OCIO to ensure SSA is in full compliance
   with the E-Government Act.

5. Continue to develop and implement an IT security training tracking and monitoring
   system.




                                        James G. Huse, Jr.
                                   Addendum
   Office of the Inspector General’s Detailed Report
 on the Social Security Administration’s Compliance
with the Federal Information Security Management Act
               FY 2003 Completed OMB FISMA Reporting Worksheets for SSA
A.2a1. Identify the total number of programs and systems in the Agency, the total number of systems and programs
reviewed by the program officials and Chief Information Officers (CIOs) in Fiscal Year (FY) 03, the total number of
contractor operations or facilities, and the number of contractor operations or facilities reviewed in FY03.
Additionally, Inspectors General (IGs) shall also identify the total number of programs, systems, and contractor
operations or facilities that they evaluated in FY03.
                                                                                             FY03 Contractor Operations
                                                      FY03 Programs       FY03 Systems              or Facilities
                                                    Total     Number      Total   Number      Total
Bureau Name                                        Number Reviewed Number Reviewed Number Number Reviewed
SSA                                                    1         1         17        17        16            16
Agency Total                                           1         1         17        17        16            16
b. For operations and assets under their control,          Yes                  Yes           Yes           Yes
have Agency program officials and the Agency
CIO used appropriate methods (e.g., audits or
inspections) to ensure that contractor provided
services or services provided by another Agency
for their program and systems are adequately
secure and meet the requirements of Federal
Information Security Management Act (FISMA),
Office of Management and Budget (OMB) policy
and National Institute of Standards and
Technology (NIST) guidelines, national security
policy, and Agency policy?
c. If yes, what methods are used? If no, please   Audits, evaluations and assessments were completed by the Office of
explain why.                                      the Inspector General (OIG), General Accounting Office (GAO), and
                                                  other audit contractors. Evaluations and surveys performed by Office of
                                                  Protective Security Services and SEI.
d. Did the Agency use the NIST Self-Assessment Social Security Administration (SSA) completed the NIST Self-
Guide to conduct its reviews?                     Assessment Guide for all 17 sensitive systems. However, the OIG
                                                  found that the Assessment completed by the Agency did not include all
                                                  system related findings. See Note 1
e. If the Agency did not use the NIST Self-       SSA used the NIST Self-Assessment Guide for all 17 sensitive
Assessment Guide and instead used an Agency-
                                                  systems.
developed methodology, please confirm that all
elements of the NIST Guide were addressed in
the Agency methodology.
f. Provide a brief update on the Agency's work to See Note 2
develop an inventory of major Information
Technology (IT) systems.




        1
            Per OMB Guidance, question A.1. only completed by the Agency.


        OIG’s Detailed Report on SSA’s Compliance with FISMA (A-14-03-13046)                               1
OIG performed or participated in 71 different audits at SSA or contractor locations. These locations included SSA (38),
Disability Determination Service (17), Representative Payee (7), Consulting Physicians for Disability Exams (2), OIG (2), Data
Matching with Foreign Countries (1), State Bureau of Vital Statistics (1), States (1), Texas Workers Compensation (1), and
Wage Reporting (1). As part of the financial statement audit, PricewaterhouseCoopers LLP (PwC) tested the following
applications for the OIG during FY 2003 – Cost Accounting System, Death Alert Control & Update System, Earnings Records
Maintenance System, Financial Accounting System, Integrated Client Database, Modernized Enumeration System,
Modernized Claims System, Retirement, Survivors & Disability Insurance Accounting System, Retirement, Survivors &
Disability Insurance Post Entitlement System, Manual Adjustment, Credit, & Award Processes, Debt Management System,
Modernized Supplemental Security Income Claims System, Supplemental Security Income Records Maintenance System,
Comprehensive Integrity Review Process, Office of Quality Assurance/Pre-effectuation Review, Property Accountability
System, Internet Social Security Benefit Application, and FALCON Date Entry System. The audits were completed using
Federal Information System Control Audit Manual standards and Generally Accepted Government Auditing Standards.
Note 1: The Agency, OIG, and GAO completed or directed completion of multiple audits at vendor and contractor locations –
as documented in A2. The audit plans may or may not address all elements of the NIST Self-Assessment based on the
scope and expectations of the review or assessment being accomplished.
Note 2: The Agency is in the process of developing a complete inventory of applications that support the Agency. The
information is in draft at this time and not ready for release but shows a more comprehensive approach to identifying what
applications are supported under the 17 Sensitive Systems that are certified annually. Currently, there were 43 additional
different applications that have been initially identified. The project is scheduled to be completed during FY2004.




         OIG’s Detailed Report on SSA’s Compliance with FISMA (A-14-03-13046)                                  2
A.3. Identify all material weakness in policies, procedures, or practices as identified and required to be
reported under existing law in FY03. Identify the number of material weaknesses repeated from FY02,
describe each material weakness, and indicate whether plans of action and milestones (POA&Ms) have
been developed for all of the material weaknesses.
                                                        FY03 Material Weaknesses
                                                Total Number                                      POA&Ms
                                    Total                      Identify and Describe Each
                                                Repeated from                                    developed?
Bureau Name                        Number                           Material Weakness
                                                    FY02                                            Y/N
SSA                                   0          See Note 1             See Note 1                  Yes
Agency Total                          0


Note 1: There were 3 POA&Ms carried over from FY2002. Status on all three, as of 7/3/03 was "Ongoing".
Each issue had multiple parts/milestones identified that needed to be resolved before the entire issue could be
closed. For issue FY02.1 there were 2 sub-tasks identified, FY02.3 - 1 sub-task, FY02.4 - 5 sub-tasks. FY02.1
subtasks noted the tasks would be completed by end of Calendar Year (CY) 04 with full resolution expected
during FY04. FY02.3 indicated no change but referred to a sub-task in FY02.1 that was scheduled to be
completed by end of CY04. FY02.4 sub-tasks status indicated completion in Quarter (Q) 4 FY03, end of July
2003, end of 2003, Q4 FY03, end of CY03 respectively.

The OIG found that SSA does not have POA&Ms for all weaknesses. For example, the OIG’s management
information system shows 40 system and security related weaknesses that may require POA&Ms to be
developed.




OIG’s Detailed Report on SSA’s Compliance with FISMA (A-14-03-13046)                                  3
A.4. This question is for IGs only. Please assess whether the agency
has developed, implemented, and is managing an agency-wide plan of
action and milestone process that meets the criteria below. Where
appropriate, please include additional explanation in the column next
to each criteria.                                                                  Yes              No
Agency program officials develop, implement, and manage POA&Ms for                              See Note 1
every system that they own and operate (systems that support their
programs) that has an IT security weakness.
                                                                              Yes - POA&Ms
Agency program officials report to the CIO on a regular basis (at least        are created
quarterly) on their remediation progress.                                       quarterly.
Agency CIO develops, implements, and manages POA&Ms for every system                           See Note 1
that they own and operate (systems that support their programs) that has an
IT security weakness.
The agency CIO centrally tracks and maintains all POA&M activities on at            Yes
least a quarterly basis.
The POA&M is the authoritative agency and IG management tool to identify                      No - See Note
and monitor agency actions for correcting information and IT security                               2
weaknesses.
System-level POA&Ms are tied directly to the system budget request through          Yes
the IT business case as required in OMB budget guidance (Circular A-11) to
tie the justification for IT security funds to the budget process.
Agency IGs are an integral part of the POA&M process and have access to                        See Note 3
agency POA&Ms.
The agency's POA&M process represents a prioritization of agency IT          Yes (see Note 1)
security weaknesses that ensures that significant IT security weaknesses are
addressed in a timely manner and receive, where necessary, appropriate
resources.

Note 1: The Agency has an undocumented practice in place to develop POA&Ms based on systems and
security issues identified from audits, assessments, and evaluations. SSA is developing a single database that
Office of System Security Operations Management (OSSOM) will maintain and administer under the guidance
of Chief Security Officer (CSO). SSA expects to complete the tracking system and database within the next
few months. Once complete, the application will be used to develop the POA&M report.
Note 2: The POA&M development process is limited to those issues that the CIO deems appropriate. The
Agency has other systems and processes in place to track the issues noted during audits, assessments, and
evaluations. The Agency makes its own determination when these issues have been resolved.
Note 3: To date, the OIG has not been sent the POA&Ms on a regular basis. The OIG is working with the
Office of the Chief Information Officer (OCIO) to improve coordination and reporting under the POA&M process.




OIG’s Detailed Report on SSA’s Compliance with FISMA (A-14-03-13046)                                4
B.1. Identify and describe any specific steps taken    SSA established the OCIO on July 11, 2002 for the
by the agency head to clearly and unambiguously        CSO function, and was signed by SSA’s Commissioner
set forth FISMA's responsibilities and authorities     on July 1, 2002. The OCIO includes a separate sub-
for the agency CIO and program officials.              office for IT Systems Review and another for IT
Specifically how are such steps implemented and        Security Policy. These steps are largely implemented
enforced?                                              through the Information System Security Handbook.
                                                       Enforcement of the policy comes from reviews of
                                                       practices through Agency, contractor, and OIG reviews
                                                       and audits.
B.2. Can a major operating component of the            No - SSA policy requires such projects and investment
agency make an IT investment decision without          requests to be approved by the CIO as part of the
review by and concurrence of the agency CIO?           budget process.
B.3. How does the head of the agency ensure that SSA’s System Development Life Cycle (SDLC)
the agency’s information security plan is practiced methodology in place (Project Resource Guide)
throughout the life cycle of each agency system? includes a security component in each stage of any
                                                       given project throughout its development and
                                                       implementation (including system changes). A review
                                                       of security practices and security controls is included
                                                       as part of the annual Sensitive Systems Accreditation
                                                       and Certification process. The annual certifications
                                                       and accreditations represent specific steps taken to
                                                       ensure security plans for sensitive and mission-critical
                                                       systems are up-to-date and practiced throughout the
                                                       systems life cycle
B.4. During the reporting period, did the agency       Yes – The Agency oversees performance through the
head take any specific and direct actions to           use of audits and reviews by contractors, GAO, and
oversee the performance of 1) agency program           OIG.
officials and 2) the CIO to verify that such officials
are ensuring that security plans are up-to-date and
practiced throughout the lifecycle of each system?
Please Describe.
B.5. Has the agency integrated its information and Yes – SSA has integrated its information security
information technology security program with its       program with its critical infrastructure protection (CIP)
critical infrastructure protection responsibilities    responsibilities and other security programs. SSA’s
and other security programs (e.g., continuity of       CIP workgroup consists of various security personnel
operations, and physical and operational security)? within the Agency that address physical security,
Please Describe.                                       continuity of operations, and information systems
                                                       security.
B.6. Does the agency have separate staffs devoted Yes - Agency views all its security activities as falling
to other security programs, are such programs          under a single security program supported by the entire
under the authority of different agency officials, if organization. Different security components are placed
so what specific efforts have been taken by the        throughout the Agency. The components have indirect
agency head or other officials to eliminate            reporting links to the CSO’s office (which is considered
unnecessary duplication of overhead costs and          the primary security component). Security components
ensure that policies and procedures are consistent are allocated as needed and appropriate to minimize
and complimentary across the various programs          the possibility of duplication of effort.
and disciplines?




OIG’s Detailed Report on SSA’s Compliance with FISMA (A-14-03-13046)                                  5
B.7. Identification of agency’s critical operations and assets (both national critical operations and
assets and mission critical) and the interdependencies and interrelationships of those operations and
assets
a. Has the agency fully identified its national critical operations and assets?              Yes
b. Has the agency fully identified the interdependencies and                             In process.
interrelationships of those nationally critical operations and assets?
c. Has the agency fully identified its mission critical operations and assets?               Yes
d. Has the agency fully identified the interdependencies and                             In process
interrelationships of those mission critical operations and assets?
e. If yes, describe the steps the agency has taken as a result of the review.              Note 1
f. If no, please explain why.                                                                  N/A
Note 1: The Agency has identified eight critical assets as part of the Project Matrix Step One, and has
completed vulnerability assessment for seven of the eight assets. Project Matrix Step Two reviews have been
completed for five of the eight critical assets by the OIG and the Chief Infrastructure Assurance Office. Step
Two review of one asset is in the draft report stage and the Step Two review of the last two assets is in the
fieldwork stage.




OIG’s Detailed Report on SSA’s Compliance with FISMA (A-14-03-13046)                                  6
B.8. How does the agency head ensure that the agency, including all components, has documented
procedures for reporting security incidents and sharing information regarding common vulnerabilities?
a. Identify and describe the procedures for external reporting to law                           Note 1
enforcement authorities and to the Federal Computer Incident Response
Center (FedCIRC).
b. Total number of agency components or bureaus.                                                 1,500
c. Number of agency components with incident handling and response                                2
capability.                                                                                     Note 1
d. Number of agency components that report to FedCIRC.                                            1
e. Does the agency and its major components share incident information                            Yes
with FedCIRC in a timely manner consistent with FedCIRC and OMB
guidance?
f. What is the required average time to report to the agency and FedCIRC                  Immediately after a
following an incident?                                                                  reportable incident has
                                                                                            been identified
g. How does the agency, including the programs within major components,                         Note 2
confirm that patches have been tested and installed in a timely manner?

h. Is the agency a member of the Patch Authentication and Distribution                            Yes
Capability operated by FedCIRC?

i. If yes, how many active users does the agency have for this service?               1 - SSA component Office
                                                                                      of Telecommunication and
                                                                                         Systems Operations
                                                                                               (OTSO)
j. Has the agency developed and complied with specific configuration                            Note 3
requirements that meet their own needs?

k. Do these configuration requirements address patching of security                             Note 3
vulnerabilities?



Note 1: Although OTSO identifies incidents through the Incident Response Checklist and also communicates
the monthly status to FedCIRC, OIG has primary responsibility to communicate such incidents to appropriate
law enforcement agencies when necessary.

Note 2: OTSO has subscribed to the FedCIRC patch program but it is still in the initial implementation stage.
System Software and Change Control testing in the National Computer Center accomplished in prior years
noted that the Agency has a robust problem identification, validation, and implementation process that include
identifying patches from multiple software vendor sites and then testing them in phases until fully confident that
they resolve the problem intended. This process has been implemented to ensure that the Agency identifies
patches that address weaknesses that may pose a threat to the Agency's ability to maintain a safe, sound, and
secure server-based environment.
Note 3: The Agency has developed configuration standards for the AS/400, UNIX, NT, and Windows operating
environments. There has not been a standard developed for any other operating environment that may be in
use by ancillary locations or offices. There is an automated process in place that includes polling the AS/400's
in field locations and identifying configuration anomalies and then decides whether to resolve or waive any
discrepancies. If a weakness is identified that requires installation of a patch to resolve that weakness, the
patch will be implemented across all appropriate domains.




OIG’s Detailed Report on SSA’s Compliance with FISMA (A-14-03-13046)                                     7
B.9. Identify by bureau, the number of incidents (e.g., successful and unsuccessful network
penetrations, root or user account compromises, denial of service attacks, website defacing attacks,
malicious code and virus, probes and scans, password access) reported and those reported to
FedCIRC or law enforcement.
                    Number of incidents    Number of incidents reported   Number of incidents reported
  Bureau Name
                          reported           externally to FedCIRC        externally to law enforcement
       SSA                  None                      None                             None




OIG’s Detailed Report on SSA’s Compliance with FISMA (A-14-03-13046)                            8
C.1. Have agency program officials and the agency CIO: 1) assessed the risk to operations and assets under their
control; 2) determined the level of security appropriate to protect such operations and assets;
3) maintained an up-to-date security plan (that is practiced throughout the life cycle) for each system supporting
the operations and assets under their control; and 4) tested and evaluated security controls and techniques? By
each major agency component and aggregated into an agency total, identify actual performance in FY03 according
to the measures and in the format provided below for the number and percentage of total systems.
                                                           f. Number
                                                                                         g.
                                                                 of
                                          d.                                       Number of
                                                             systems
                                       Number                                        systems
                                                                with                                     i. Number of
                      c. Number of        of    e. Number                           for which h. Number
                                                             security                                     systems for
                    systems assessed systems of systems                              security of systems
                                                              control                                        which
                       for risk and   that have certified                            controls    with a
                                                               costs                                     contingency
                     assigned a level an up-to-     and                            have been contingency
                                                           integrated                                      plans have
                          or risk       date IT accredited                         tested and     plan
                                                             into the                                     been tested
                                       security                                     evaluated
                                                            life cycle
                                         plan                                       in the last
                                                               of the
                                                                                       year
           b. Total                                           system
a. Bureau Number of No. of       % of
  Name     Systems Systems Systems No. % No.           %   No. %                    No.    %     No.     %    No.        %

   SSA        17       17        100  17 100 17       100 17 100                     17   100    16    94.1    14       82.4
 Agency
              17       17        100  17 100 17       100 17 100                     17   100    16    94.1    14       82.4
   Total

SSA’s annual system accreditations and certifications assess the risk to operations and assets under its control and
determines the level of security required to protect these assets and their operations. (See Addendum I ) According to SSA
there are only 17 systems; however, this does not include all subsystems as required by FISMA.

According to the Federal Guidelines followed for the performance of the annual accreditations and certifications, each
division or unit with responsibility for a specific sensitive system asserts that the reviews are performed in accordance with
the guidance provided in NIST Special Publication 800-18 and Appendix III of OMB Circular A-130. While the accreditation
assessment reports note few specific system weaknesses, they do refer to related audit reports containing identified control
and security weaknesses.

Additionally, the SSA has identified its critical assets as part of the CIP process and performed assessments of risks for
these assets (6 of 8) as noted in step B.4 above, to identify controls needed and levels of risk associated with the critical
assets identified by the CIP. The results of these assessments are to be used to determine the level of security needed to
protect these assets.

The Agency considers security in each stage of the systems development life cycle (SDLC), including system changes.
This is also documented in the SDLC procedures for changes to SSA systems. Management further asserted that the
review of security practices and security controls is performed as part of the annual sensitive system accreditation and
certification. These annual reviews represent specific steps taken to ensure that security plans are up-to-date and continue
to be practiced throughout the life cycle of each system and represent how management has maintained an up-to-date
security plan for their systems. Management used outside contractors to perform independent reviews, assessments, and
evaluations during FY 2003 to test and evaluate security controls and techniques. These assessments were undertaken for
critical assets and are considered by the Agency to be outside of the normal audit schedule as accomplished in other
divisions and operating units. These assessments were undertaken based on management's decision to obtain a different
level of confirmation as to where security weaknesses may exist in the core environments.




          OIG’s Detailed Report on SSA’s Compliance with FISMA (A-14-03-13046)                                      9
According to SSA, two of the three systems that have not had their contingency plans tested, the Comprehensive Integrity
Review Program (CIRP) and the Audit Tracking System (ATS), are deemed to be non-critical and, as such, are not required
to be recovered immediately after a disaster. The third system—the LOGIPLEX building access system—has not been
tested because in the event of a disaster an alternate access system, will be utilized at the recovery center. The critical
sub-component of the Human Resources Management Information System (HRMIS), which is payroll, was tested as part of
the disaster recovery exercise.




         OIG’s Detailed Report on SSA’s Compliance with FISMA (A-14-03-13046)                                  10
C.2. Identify whether the agency CIO has adequately maintained an agency-wide IT security program and ensured
the effective implementation of the program and evaluated the performance of major agency components.

                                                                    Has the agency CIO
Has the agency CIO Did the CIO evaluate           How does the
                                                                     appointed a senior       Do agency POA&Ms account for
   maintained an   the performance of all      agency CIO ensure
                                                                    agency information           all known agency security
  agency-wide IT          agency              that bureaus comply
                                                                   security officer per the      weaknesses including all
 security program? bureaus/components?        with the agency-wide
                                                                      requirements in                   components?
        Y/N                 Y/N               IT security program?
                                                                          FISMA?
        Yes              Yes - The CIO and Through the OSCAR                 Yes              No. See Note 2 & See A2 and
                        CSO use reports from and independent                                  A3 for documentation pertaining
                         independent audits reviews process that                              to POA&Ms and issue tracking.
                          and the OSCAR2        periodically occur
                         reviews to assist in throughout the year.
                              evaluating
                        performance – (Also
                            See Note 1).

Note 1: The CIO is included in the process that ensures that Agency management is made aware of the audits that are
performed at and for the Agency. The process ensures that the CIO through the CSO is notified on issue resolution at least
quarterly. The CIO through the CSO and OSSOM tracks components that do not complete their assessments within the
previous FY. FISMA requires the agency CIOs monitor their agency’s implementation of IT standards developed by NIST.
At SSA, the CIO has indirect authority over security policy development and implementation. The components in charge of
those activities exist in other components and are ultimately responsible to other Deputy Commissioners. OSSOM
implements security policy and is part of the Office of Financial Assessment and Management and reports to the Deputy
Commissioner of Finance, Assessment and Management. OTSO, which implements and monitors security policy, is part of
the Office of Systems and reports to the Deputy Commissioner of Systems. Finally, FISMA requires that each Federal
agency CIO head an office with the mission and necessary resources to ensure the agency compliance with the regulation.
The CSO works within the office to oversee the security program, but only has a staff of three people.
Note 2: SSA develops POA&Ms based primarily on how divisions address open issues and whether or not there has been
any priority to resolve them. The Agency uses other processes to log, track, and resolve issues noted during assessments.
There is no centralized database to ensure that all systems and security related issues are addressed and included in
POA&M.




         2
             Onsite Security Control and Audit Review.


         OIG’s Detailed Report on SSA’s Compliance with FISMA (A-14-03-13046)                                     11
C.3. Has the agency CIO ensured security training and awareness of all agency employees, including
contractors and those employees with significant IT security responsibilities?
                                   Total number of Agency employees with
   Total                               agency          significant security
number of Agency employees that employees with        responsibilities that
  agency      received IT security  significant IT   received specialized Briefly describe Total costs for
employees       training in FY03       security              training           training          providing
 in FY03     Number Percentage     responsibilities Number Percentage           provided      training in FY03
                                                                                  SSA
                                                                             management
64,116 (as    63,700        99.4%        292                                                      $374,979
                                                       223          76%     maintains a list
of 8/18/03) See Note 1 See Note 1                                                                See Note 3
                                                                            of course titles.
                                                                              See Note 2

Note 1: The figure reported is based upon the number of employees who reviewed and signed their annual
sanctions awareness form.
Note 2: Some of the courses reviewed did not appear to be dedicated to IT security. SSA tried to estimate how
many of the courses related to IT security.

Note 3: The Agency does not have a central system for tracking security training costs. The Agency requested
each component provide information on the number of people and the expense of the IT security training. SSA is
currently developing a database that will centrally compile and track security training. Of the components that
reported security training in FY 2003, the total costs were $374,979.




 OIG’s Detailed Report on SSA’s Compliance with FISMA (A-14-03-13046)                                 12
C.4. Has the agency CIO fully integrated security into the agency’s capital planning and investment
control process? Were IT security requirements and costs reported on every FY05 business case (as
well as in the exhibit 53) submitted by the agency to OMB?
                        Did the agency program
                                                  Did the agency CIO plan
         Number of      official plan and budget
                                                      and budget for IT       Are IT security costs reported in
Bureau business cases       for IT security and
                                                   security and integrate the agency's capital budget for
Name submitted to OMB integrate security into all
                                                   security into all of their    each IT investment? Y/N
           in FY05      of their business cases?
                                                   business cases? Y/N
                                    Y/N
 SSA None to date - not             Yes                      Yes                             Yes
          due until
       September. See
            Note 1

Note 1: The Agency has developed 16 business cases that will be submitted for FY05 cycle. Business cases for
FY05 cycle are not due to be submitted to OMB until September. According to SSA, there were 20 business
cases submitted in FY04 cycle.



POA&M Update – See OMB Steps A3 and D1
Quarterly POA&M Updated Information                                        Programs             Systems
a. Total number of weaknesses identified at the start of the quarter.            6                   3
b. Number of weaknesses for which corrective action was completed       1 - all others are   0 - all ongoing
on time (including testing) by the end of the quarter.                       ongoing
c. Number of weaknesses for which corrective action is ongoing and              5                   3
is on track to complete as originally scheduled.
d. Number of weaknesses for which corrective action has been                    0                   0
delayed including a brief explanation for the delay.
e. Number of new weaknesses discovered following the last POA&M                 0                   0
update and a brief description of how they were identified (e.g.,
agency review, IG evaluation, etc.).

Note 1: The Agency has not included the date opened in the POA&Ms. Instead, it has documented the
opening by identifying "How Identified" which can be tracked back to a specific event. The Agency is
developing a system and process that will include identifying open dates as well as other information in
accordance with NIST guidelines. To fully comply with FISMA, the new system must be able to generate
POA&Ms for all issues across the Agency and it must include a verifiable remediation process. See A3 for
POA&M material obtained and analyzed during the course of fieldwork.




OIG’s Detailed Report on SSA’s Compliance with FISMA (A-14-03-13046)                                    13
                                        Addendum I

    Accreditations for the 17 sensitive systems reviewed for FY 2003

#                             System                                              Acronym
1   Retirement, Survivors & Disability Insurance - Initial Claims      RSDI - IC

2   Retirement, Survivors & Disability Insurance - Post                RSDI - PE
    Entitlement
3   Retirement, Survivors & Disability Insurance - Accounting          RSDI - Acct

4   Recovery of Overpayments, Accounting, & Reporting                  ROAR
    System
5   SSN Establishment & Correction System                              Enumeration

6   Earnings Record Maintenance System                                 ERMS

7   Supplemental Security Income Records Maintenance                   SSIRMS
    System
8   Human Resources Management Info System                             HRMIS

9   Debt Management System                                             DMS

10 Audit Trail System                                                  ATS
11 Death Alert Control & Update System                                 DACUS

12 Financial Accounting System                                         FACTS
13 Comprehensive Integrity Review Process                              CIRP

14 Enterprise Mainframe & Distributed Network Telecom                  Network and mainframe
   System                                                              components

15 Logiplex Security System                                            Logiplex

16 FALCON Data Entry System                                            FALCON

17 Integrated Client Database                                          ICDB




OIG’s Detailed Report on SSA’s Compliance with FISMA (A-14-03-13046)                           14
                                    Appendices
APPENDIX A - Acronyms

APPENDIX B - OIG Contacts and Staff Acknowledgments
                                                                 Appendix A
Acronyms

CY                 Calendar Year
CIO                Chief Information Officer
CIP                Critical Infrastructure Protection
COOP               Continuity of Operations Plan
CSO                Chief Security Officer
DDS                Disability Determination Services
E-Government Act   Electronic Government Act of 2002
FedCIRC            Federal Computer Incident Response Center
FISMA              Federal Information Security Management Act
FMS                Federal Management Services
FY                 Fiscal Year
GAO                General Accounting Office
GISRA              Government Information Security Reform Act
HHS                Department of Health and Human Services
IG                 Inspector General
IT                 Information Technology
NIST               National Institute of Standards and Technology
OCIO               Office of the Chief Information Officer
OIG                Office of the Inspector General
OMB                Office of Management and Budget
OSSOM              Office of System Security Operations and Management
OSCAR              On-site Security Control and Audit Review
OTSO               Office of Telecommunication and System Operation
PSC                Program Service Center
PwC                PricewaterhouseCoopers
POA&M              Plan of Action and Milestones
SDLC               Systems Development Life-Cycle
SSA                Social Security Administration
SSI                Supplemental Security Insurance
VA                 Department of Veterans Affairs
                                                                     Appendix B

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kitt Winter, Director, Data Analysis and Technical Audit Division (410) 965-9702

   Phil Rogofsky, Audit Manager, Network Security and Telecommunication Branch
   (410) 965-9719

Acknowledgments

In addition to the persons named above:

   Mary Ellen Fleischman, Senior Program Analyst

   Greg Hungerman, Senior Program Analyst

   Harold Hunter, Senior Auditor

   Greg Thompson, Auditor

   Grace Chi, Auditor

   Annette DeRito, Writer/Editor
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Deputy Commissioner of Social Security
Deputy Commissioner of Systems
Deputy Commissioner of Finance, Assessment and Management
Chief Information Officer
Deputy Commissioner of Operations
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
              Overview of the Office of the Inspector General

                                       Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of
the Social Security Administration’s (SSA) programs and makes recommendations to
ensure that program objectives are achieved effectively and efficiently. Financial audits,
required by the Chief Financial Officers' Act of 1990, assess whether SSA’s financial
statements fairly present the Agency’s financial position, results of operations and cash
flow. Performance audits review the economy, efficiency and effectiveness of SSA’s
programs. OA also conducts short-term management and program evaluations focused
on issues of concern to SSA, Congress and the general public. Evaluations often focus
on identifying and recommending ways to prevent and minimize program fraud and
inefficiency, rather than detecting problems after they occur.

                              Office of Executive Operations
OEO supports the OIG by providing information resource management; systems
security; and the coordination of budget, procurement, telecommunications, facilities
and equipment, and human resources. In addition, this office is the focal point for the
OIG’s strategic planning function and the development and implementation of
performance measures required by the Government Performance and Results Act.
OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from SSA,
as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates
responses to Congressional requests for information, and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.

                               Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA programs and operations. This
includes wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                         Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation,
and policy directives governing the administration of SSA’s programs; 2) investigative
procedures and techniques; and 3) legal implications and conclusions to be drawn from
audit and investigative material produced by the OIG. The Counsel’s office also
administers the civil monetary penalty program.
